No.

In The
Supreme Court Of The United States
Robert 2Arthur Moses--Petitioner
v
The State Of Texas--Respondent
Proof Of Service
I, Robert Arthur Moses, do smear or declare that on
, 2021, as required by Supreme Court Rule 29,
I have sent by Certified Mail # 70202450 0000 8737 3323 a True
and Correct Copy of Petitioner's :
1 .

Motion for leave to file Petition for lilrit of
Cetiorari;

2.

Petiton for a Idrit Of Certiorari ( Documents in
appendix previously sent;)

3.

Motion for Leave to proceed as a Veteran;

to the Respondent--The State of Texas
C/0 Texas State Attorney
P0 BOX 13046
Austin, Texas 78711
I declare under penalty of Perjury that the foregoing is
True and Correct.
Date :

5 I II

Owi (It)ir Q u/CYAm&a

, 2021
CERTIFICATION

I, hereby certify that all statements herein are True and
Correct.

I further Certify that the approximately

23

OSb'SoL

words in this Petition under Rule 14, do not exceed the 9,000
word limit.

I further Certify that this Petition does not exceed

the 40 page limit under Rule 33.2(b).
Date :

5 jil

, 2021
DECLARATION

I, declare under penalty of perjury that all copies herein
(appendix) are True and Correct copies of the documents represented.
Date :

sju

, 2021

This Petition for Writ Of Certiorari is respectfully submitted
on this the

l Ilk day

of

, 2021, via Certified Mail #

7020 2450 0000 8737 3354

Robert Arthur Moses
TDC0#2101342
McConnell Unit
3001 S. Emily Dr.
Beeville, TX 78102

APPENDIX

w

Appendix listings on pages

24

